                                                        IG-01-020




AUDIT
                              VALIDATION AND VERIFICATION OF
REPORT                      SELECTED NASA FY 2000 PERFORMANCE
                             DATA RELATED TO THE GOVERNMENT
                           PERFORMANCE AND RESULTS ACT (GPRA)

                                       March 30, 2001




                               OFFICE OF INSPECTOR
                                    GENERAL
National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington,
DC 20026. The identity of each writer and caller can be kept confidential, upon request, to the
extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

CFO              Chief Financial Officer
EOCAP            Earth Observing Commercialization Applications Program
FY               Fiscal Year
GAO              General Accounting Office
GPRA             Government Performance and Results Act
HEDS             Human Exploration and Development of Space
OIG              Office of Inspector General
OMB              Office of Management and Budget




                                                ii
W                                                                                 March 30, 2001


TO:               A/Administrator

FROM:             W/Inspector General

SUBJECT:          INFORMATION: Validation and Verification of Selected NASA FY 2000
                  Performance Data Related to the Government Performance and
                  Results Act (GPRA)1
                  Report Number IG-01-020


The NASA Office of Inspector General (OIG) has completed an audit of the accuracy and
reliability of performance data for selected GPRA performance targets2 that will be in the
Agency's Fiscal Year (FY) 2000 Performance Report.3 The audit is a continuation of our
oversight of NASA's implementation of GPRA as described in our Results Act Review Plan.4,5
The annual Performance Report is a document that the Congress and Office of Management
and Budget (OMB) will use to assess NASA's overall performance and may make decisions on
Agency programs and funding levels. NASA's FY 2000 Performance Report will contain the
Agency's assessment of its actual performance against 211 performance targets. The
supporting data and information on 19 of 23 performance targets we reviewed6 were adequate,
and we did not identify any significant problems with reported actual performance for those
targets.

1
  Congress enacted GPRA in 1993 to improve public confidence in the Federal Government by holding
agencies accountable through setting program goals, measuring performance against those goals, and
reporting publicly on progress. This act is contained in Public Law 103-62.
2
  Performance target is the term NASA uses in the Performance Plan for those measures or metrics that were
established to accomplish (and measure) the individual goals and objectives. Target, as used in this report,
generally equates to the terms “measure” or “indicator” as used in the GPRA.
3
  In March 2000, NASA published its first Performance Report covering FY 1999. At the time we performed
the audit, NASA was collecting data for its Performance Report covering FY 2000.
4
  An October 1998 letter signed by the House Majority Leader and Chairmen of the House Committee on
Government Reform and Oversight; the House Subcommittee on Government Management, Information,
and Technology; and the Results Caucus asked the NASA OIG to establish a GPRA review plan to assess
Agency controls. In response to the request, the OIG included a plan in its Semiannual Report for
March 31, 1999.
5
  The NASA OIG has issued reports on previous audits of NASA's implementation of GPRA. Additional
details on the audits are in Appendix B.
6
  We reviewed 23 targets that related to 6 critical areas: Procurement, Financial Management, Information
Technology, International Space Station, Program and Project Management, and Safety and Mission
Assurance.
                                                                                                          2

However, the performance reported on four targets was not fully reliable because the
supporting data did not accurately support the results described.7 Reported performance for
some of the 188 targets not reviewed may also not be fully reliable for the same reasons.
Reporting performance results that are not fully reliable limits the usefulness of the Performance
Report to NASA, OMB, and the Congress. Although NASA had taken steps to validate
performance information that will go into the annual Performance Report, NASA could further
improve the process.

Background

Because NASA Centers implement many of the programs and activities that have GPRA
performance goals and targets, they were the source for much of the data used to measure and
evaluate actual performance. For most of the targets we reviewed, the Headquarters offices
responsible for the program or activity had collected the data from the Centers, developed a
written assessment of the actual performance, and submitted that assessment to the Chief
Financial Officer (CFO) for use in preparing the Performance Report. We evaluated those
assessments and the supporting information during the audit.

Management's Response and OIG Evaluation

NASA concurred with our recommendations. Management reviewed the performance
statements for the four performance targets and made the necessary corrections or clarifications
in the FY 2000 Performance Report. In addition, for each performance target, NASA included
a description of the methods used to verify and validate supporting data and identified the data
source. These actions help to substantiate reported actual performance and improve the
usefulness of the Performance Report. In addition, the CFO emphasized the need to develop
clear and measurable performance targets in the FY 2002 Performance Plan data call letter and
the FY 2003 performance metric development guidance. The guidance on the FY 2003
performance metrics also summarized the characteristics of good performance metrics. NASA
will continue to emphasize the need to disclose data limitations in future performance reporting.

Details on the status of the recommendations are in the finding section of the report.




[original signed by]
Roberta L. Gross

Enclosure

7
 For purposes of our audit and this report, the terms “reported performance” and “reported results” are the
same and refer to written self-assessments of actual results prepared by the responsible GPRA officials and
provided to the NASA Chief Financial Officer for the Performance Report.

                                                     2
Final Report on Audit of Validation and Verification of Selected NASA FY 2000 Performance
 Data Related to the Government Performance and Results Act (GPRA)




                                            3
                  FINAL REPORT
AUDIT OF VALIDATION AND VERIFICATION OF SELECTED
 NASA FY 2000 PERFORMANCE DATA RELATED TO THE
GOVERNMENT PERFORMANCE AND RESULTS ACT (GPRA)
W                                                                            March 30, 2001


TO:             B/Acting Chief Financial Officer

FROM:           W/Assistant Inspector General for Auditing

SUBJECT:        Final Report on Audit of Validation and Verification of Selected NASA FY
                2000 Performance Data Related to the Government Performance and Results
                Act (GPRA)
                Assignment Number A0100500
                Final Report IG-01-020


The subject final report is provided for your information and use. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response is incorporated into the
body of the report. The corrective actions completed for the recommendations were
responsive. Management's actions are sufficient to close the recommendations for reporting
purposes.

If you have questions concerning the report, please contact Mr. Chester A. Sipsock, Program
Director, Environmental and Financial Management Audits, at (216) 433-8960, or Ms. Carol
A. St. Armand, Audit Program Manager, at (301) 286-7269. We appreciate the courtesies
extended to the audit staff. The report distribution is in Appendix E.




[original signed by]
Russell A. Rau


Enclosure

cc:
AE/Chief Engineer
AS/Chief Scientist
BF/Director, Financial Management Division
BR/Acting Director, Resources Analysis Division
JM/Director, Management Assessment Division
                                                                        2

M/Associate Administrator for Space Flight
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
U/Acting Associate Administrator for Biological and Physical Research
Y/Associate Administrator for Earth Science
Z/Acting Associate Administrator for Policy and Plans




                                             vi
Contents

Executive Summary, i

Introduction, 1

Finding and Recommendations, 3

     Reliability of Data for Reported Results, 3

Appendix A - Objectives, Scope, and Methodology, 9

Appendix B - Summary of Prior Audit Coverage, 11

Appendix C - Performance Targets Reviewed in Detail, 12

Appendix D - Management’s Response, 15

Appendix E - Report Distribution, 20
                         NASA Office of Inspector General


IG-01-020
 A0100500                                                                March 30, 2001

                  Validation and Verification of Selected
             NASA FY 2000 Performance Data Related to the
             Government Performance and Results Act (GPRA)

                                  Executive Summary

Background. The NASA OIG has completed an audit of the accuracy and reliability of
performance data for selected GPRA performance targets that will be in the Agency's FY 2000
Performance Report. The Performance Report is an important document that NASA, the
Congress, and the OMB will use to assess the Agency's overall performance and make
decisions on programs and funding levels. The audit is a continuation of our oversight of
NASA's implementation of GPRA as described in our Results Act Review Plan.

Objectives. Our overall audit objective was to assess the quality of data supporting the
reported results that will be in the NASA FY 2000 Performance Report. We reviewed the
supporting data for 23 performance targets related to 6 critical areas: Procurement, Financial
Management, Information Technology, International Space Station, Program and Project
Management, and Safety and Mission Assurance.

Appendix A contains further details on the audit objectives, scope, and methodology.
Appendix C provides details on the 23 performance targets reviewed.

Results of Audit. We considered the supporting data and information on 19 (83 percent) of
the 23 performance targets reviewed to be adequate and did not identify any significant
problems with reported actual performance. However, the reported performance on four
performance targets is not fully reliable because the data reviewed did not accurately support
the described results. Given this finding and the results from previous GPRA audits, we surmise
that the reported performance for some of the 188 targets not reviewed may also not be fully
reliable for the same reasons. NASA could improve the accuracy of the FY 2000 Performance
Report by more effectively validating the supporting data and by developing clearer, more
specific targets. This would increase the Performance Report's value as a source of information
for making important program and funding decisions.

We commend NASA for a significant improvement in the reporting of actual performance.
Two factors contributed to this. First, FY 2000 was the second year that the Agency prepared
a Performance Report. NASA overcame many of the learning hurdles associated with
preparing the first report. Second, the CFO's data call for the FY 2000 Performance Report
prescribed a performance reporting format.8 For each performance target, a responsible
GPRA official was to provide an assessment of actual performance, a description of data
sources for the supporting information, and documentation of the method of verification and the
process used for validation of results. We believe that the prescribed reporting format led to
improved narratives for the performance targets.

Recommendations. The responsible GPRA officials should review and correct information on
the four targets discussed in this report and verify and validate the supporting data for the other
FY 2000 targets not audited to ensure that all reported results in the Performance Report are
accurate and reliable; develop future GPRA targets that are clear and represent desired
performance; and fully disclose data limitations in future performance reports.

Management's Response. Management concurred with the recommendations. NASA
management has reviewed and corrected the performance statements for the four performance
targets discussed in this report and will include the revised statements in the Agency’s final
Performance Report. In correspondence to the Strategic Enterprises, Headquarters Offices,
and Centers on performance targets for FY's 2002 and 2003, management has emphasized the
need to develop clear and measurable performance targets. Management will continue to stress
the requirement to report data limitations in future Performance Reports. Beginning with the FY
2002 final Performance Plan, NASA will discuss anticipated data limitations. The complete text
of management's response is in Appendix D.

Evaluation of Response. Management's planned actions are responsive to the
recommendations. A detailed evaluation of management's comments is provided with each
recommendation in the body of the report.




8
  The CFO issued a data call letter for the FY 2000 Performance Report and FY 2000 Accountability Report to
the Officials-in-Charge of Headquarters and Functional Offices (September 26, 2000).




                                                     ii
Introduction

During FY 2000, NASA conducted its programs and activities through four Strategic
Enterprises that constitute NASA's primary missions. The Strategic Enterprises are Space
Science, Earth Science, Human Exploration and Development of Space (HEDS), and
Aerospace Technology. 9 Four Crosscutting Processes support the Strategic Enterprises and
enable them to perform their mission activities. The four Crosscutting Processes are Manage
Strategically, Provide Aerospace Products and Capabilities, Generate Knowledge, and
Communicate Knowledge. The Associate Administrator for each Strategic Enterprise is
responsible for GPRA performance within the respective Enterprise. For the four Crosscutting
Processes, the Associate Administrator for Policy and Plans is responsible for Manage
Strategically; the Chief Engineer is responsible for Provide Aerospace Products and
Capabilities; and the Chief Scientist is responsible for both the Generate Knowledge and
Communicate Knowledge Processes. NASA refers to the responsible GPRA official for each
Crosscutting Process as the GPRA Steward.

NASA's Office of Policy and Plans is responsible for developing and implementing the Strategic
Plan. The Associate Administrators for the Strategic Enterprises and the GPRA Stewards are
responsible for developing and implementing the annual Performance Plan and for reporting on
actual performance for the annual Performance Report. The CFO coordinates the performance
planning and reporting processes, collecting information from the Associate Administrators for
the Strategic Enterprises and the GPRA Stewards to prepare the annual Performance Plan and
Performance Report.

NASA Centers are responsible for implementing many of the programs and activities that have
GPRA performance goals and targets. Therefore, Center systems were the source for much of
the data used to measure and evaluate actual performance. The Associate Administrators for
the Strategic Enterprises and the GPRA Stewards collected the data from the Centers,
developed a written assessment of the actual performance, and submitted the assessment to the
CFO for use in preparing the Performance Report.

In its review of NASA's FY 2000 Performance Plan, the General Accounting Office (GAO)
stated that the Plan provides limited confidence that the Agency's performance information is
credible. The Plan identifies internal and external organizations that will evaluate performance,
provides expanded detail on such evaluations, and identifies specific internal and external
sources for data. However, the Plan does not include an explicit discussion of the procedures
the Agency will use to verify and validate performance data. In addition, the Plan does not
address possible limitations in internal and external sources of data.10



9
  On September 29, 2000, NASA established the Office of Biological and Physical Research, which formed a
separate and fifth Enterprise focusing on scientific research. The Associate Administrators for the Office of
Space Flight and the Office of Biological and Physical Research are each responsible for separate
performance targets in the HEDS Enterprise.
10
   More details on GAO's review are in Appendix B.
We noted in an earlier OIG audit11 that the Agency lacked specific procedures for NASA
program offices to follow in verifying performance data and reported results. NASA
management took the position that most of the data used to measure GPRA-related
performance came from internal sources, thus additional procedures were not necessary to
ensure accuracy and reliability. Details of the prior audit are in Appendix B. In another audit of
the supporting data for selected performance targets in NASA's FY 1999 Performance
Report,12 we considered the reported performance on five targets reviewed as not fully reliable.
We found that the supporting data did not accurately support the results described.




11
   Report Number IG-99-055, “NASA Implementation of the Government Performance Results Act,” was
issued September 28,1999. The report discusses NASA's efforts to develop and use performance measures
for determining progress toward achieving the performance goals and program outcomes described in its
annual performance plans and performance reports under the GPRA.
12
   Report Number IG-00-020, “Validating FY 1999 Performance Data to Be Reported Under the Government
Performance Results Act,” was issued March 28, 2000. The report discusses the accuracy and reliability of
supporting data for selected performance targets. See Appendix B for details.

                                                    2
Finding and Recommendations

Reliability of Data for Reported Results

For 4 (17 percent) of 23 performance targets reviewed, responsible GPRA officials prepared
written assessments that did not accurately reflect supporting data and actual results. This
occurred because the officials did not consistently follow procedures in place to verify and
validate supporting data and the results. Also contributing to the problems were poor phrasing
of some targets. The planned reported performance on these four targets is, therefore, not fully
reliable, which may limit the usefulness of the information to NASA, OMB, and the Congress
for decisionmaking. Reported performance for some of the 188 targets not reviewed may also
not be fully reliable for the same reasons. Management attention is needed to address and
correct these problems before issuing future Performance Reports.

GPRA Requirements

GPRA require s an agency to prepare an annual Performance Report that compares actual
performance with the performance targets set out in the annual Performance Plan. When a
performance target is not met, the Performance Report should include an explanation for not
achieving a performance target and describe steps for meeting the goal in the future. For the
annual Performance Report to be useful, the data on the actual achievements on the Agency's
performance goals and targets and the comparisons of planned and actual performance must be
accurate.13 GPRA further requires the annual Performance Plan to include a description of the
means used to verify and validate measured values. Also, to have accurate measurements of
actual performance, it is important that the targets are described in the Plan in a manner that
ensures the planned achievements and how they are measured are clear.

Verifying and Validating Supporting Data and Results

NASA's FY 2000 Performance Plan described, as required by GPRA, the means by which the
Agency would verify its performance data. The primary means were reviews by internal and
external groups. Internally, standard monthly and quarterly project- and program-level reviews
occur at the Centers, at contractor installations, and at NASA Headquarters. Program
Management Councils14 assess program schedules, cost, and technical performance against
established programmatic commitments. External review processes include peer reviews by
outside scientific experts to ensure that science research proposals are selected strictly on the



13
   NASA also includes selected performance information in an Accountability Report, which is issued as
part of the annual Financial Statements. We discussed with CFO staff our audit findings on specific targets
that were also going to be included in the 2000 Accountability Report so that the CFO staff could take
appropriate action.
14
   The Program Management Council is the Senior Management Group, chaired by the Deputy
Administrator, responsible for reviewing and recommending approval of programs and for overseeing their
implementation according to Agency commitments, priorities, and policies.

                                                     3
merits of the planned research. Other external groups involved with verifying performance data
include the OIG, the GAO, and the NASA Advisory Council. 15

For 19 of the 23 reviewed performance targets that will be in NASA’s FY 2000 Performance
Report, we did not find any significant problems with the actual performance the Associate
Administrators for the Strategic Enterprises and the GPRA Stewards reported. Except for
minor errors, the supporting data and manner in which the actual results were reported were
generally adequate. However, as evidenced by the four targets discussed below, there could be
further improvement in the overall process for validating and verifying all GPRA performance
data and reported results. These targets have data limitations or special circumstances that
should be discussed in the FY 2000 Performance Report.

Target 0H13: “Achieve 85% on-time, successful launches, excluding weather risk.”
In January 2000, the Administrator and the Associate Administrator for Space Flight, along with
the Space Shuttle Program Manager, believed that the wording of this target might be
interpreted as compromising safety. Consequently, the officials replaced the target originally
included in the FY 2000 Performance Plan with the following: “Achieve 100% on-orbit mission
success.” For the FY 2000 Performance Report, NASA plans to report that it failed to
achieve the original target but that it has achieved the desired performance for the replacement
target. We believe, however, that the replacement target is unclear.

The target, as replaced, relates to a program managed by the Office of Space Flight. NASA
plans to report that it achieved at least a 100-percent success rate on each of the four Space
Shuttle missions completed in FY 2000. In reviewing the data to support this target, we found
that the actual measurement was of accomplishment of major mission objectives. We believe
that the target, as written, is misleading because it could be assumed that all planned activities
for the mission were included in the reported target results.

The Shuttle Program develops objectives for each mission. Depending on the activities planned
for the mission, there could be numerous objectives. However, the program prioritizes these
objectives, and those that support the primary mission(s) for that flight are documented as
Major Mission Objectives that the Shuttle Program will use as performance incentive criteria in
the Shuttle Flight Operations Contract. The Office of Space Flight also uses the criteria to
judge the success of this performance target (0H13). The Shuttle Program, however, still
makes a determination as to whether the other mission objectives were met. They may or may
not be achieved. The Shuttle Program




15
 The NASA Advisory Council and its committees are considered “internal” because they are chartered by
NASA, their members chosen by NASA, and they provide their advice and counsel directly to the NASA
Administrator.

                                                  4
also develops metrics for the success of the mission considering the success of all the payloads
and the success of the Shuttle in providing the promised support for the payload customer.

If NASA plans to use the replacement target in future performance plans, it should restate the
metric to match the data being measured. For example, “Achieve 100% of major mission
objectives.”

Target 0P2: “Ensure the availability of NASA’s spacecraft and ground facilities by
decreasing the FY99 unscheduled downtime.” This target was one of the crosscutting
performance targets in the FY 2000 Performance Plan that affects the process by which
NASA’s Strategic Enterprises and their Centers deliver systems (ground, aeronautics, and
space); technologies; data; and operational services (which includes space networks) to NASA
customers. The target relates to the Provide Aerospace Products and Capabilities Crosscutting
Process, which the Office of the Chief Engineer manages. NASA plans to report that the target
was achieved. In reviewing the target, we identified data limitations in the way performance
results were written. Therefore, we do not consider the reported assessment to be complete
and accurate.

      Spacecraft. Concerning the spacecraft portion of target 0P2, the reported performance
data was limited to specific spacecraft and space networks. For example:

•   The Office of Space Science submitted data showing downtime only for spacecraft at
    Goddard Space Flight Center and the Jet Propulsion Laboratory. Spacecraft at the
    Marshall Space Flight Center were not included in the reported data.
•   The Office of Space Flight reported on two of three space networks: Space Network -
    TDRS and the Deep Space Network. The Wide-Area Network was not included in the
    reported data.

In both instances, the data submitted to the Office of the Chief Engineer clearly identified the
spacecraft and space networks that the performance data represented. However, the reported
performance results submitted for the NASA Performance Report did not indicate that the
reported unscheduled downtime did not include all NASA spacecraft and space networks.

       Ground Facilities. NASA’s major facility managers were instructed to input downtime
data into a Web site by a specified date. Immediately after the deadline passed, the Office of
the Chief Engineer accessed the site to retrieve the data. The data showed that Kennedy Space
Center (Kennedy) and Wallops Flight Facility (Wallops) had not reported any data on
downtime for their ground facilities. According to the Office of the Chief Engineer, all ground
facilities were included in the reported downtime data. We contacted the performance target
point of contact for ground facilities at Kennedy and Wallops to determine whether they had
submitted any data. The supporting data they provided us showed that Kennedy had input data
subsequent to the cutoff date but that Wallops still had not. The Office of the Chief Engineer,
however, could not provide supporting data showing that the data originally retrieved from the
Web site and used to report performance against this target had been updated to include the
data eventually input into the Web site by Kennedy. Thus, based on the supporting data

                                                5
received, we were unable to determine whether all facilities were included in the downtime
calculation. The Office of the Chief Engineer did not disclose the data limitations of the
supporting data for this performance target when that office submitted the performance
assessment to the CFO.

Target 0R10: “Complete NSTAR [NASA Solar Electrical Propulsion Technology
Application Readiness] Mission Profile (100% design life) ground testing for Deep
Space –1 (concurrent, identical firing of an NSTAR engine in a vacuum chamber with
the actual firing sequence of the in-flight propulsion system).” This target relates to the
expansion of space research and exploration under the Office of Aerospace Technology.
NASA plans to report that the target was achieved. In reviewing the target performance
results, we were concerned with how the target was written. In our opinion, the target
performance is unclear as to how NASA measured “design life” and documented the test
results.

The CFO format for performance reporting states that documentation of the target
accomplishments should include persuasive evidence of performance that is auditable and
supportable. Information should be included indicating where the data came from, who verified
it, the process that was used to verify it and how it was validated. The reported performance
for this target did not contain this information.

To validate supporting data and reported results on this target, we reviewed program
assessments performed by NASA’s Office of Aerospace Technology as well as assessments
performed independently by other Agency components. The Office of Aerospace Technology
performs an assessment of selected aerospace technology programs each month. All programs
are subjected to assessment at least once every 3 months. In addition, the Aerospace
Technology Committee under the NASA Advisory Council conducted an independent
assessment of the targets. The Aerospace Technology Committee concurred with the GPRA
assessment prepared by the Aerospace Technology Strategic Enterprise. However, we were
unable to obtain auditable documentation for target accomplishments. Therefore, we could not
verify whether the target was achieved.

We discussed our concern with Office of Aerospace Technology representatives during the
audit. They submitted a rewritten performance results paragraph for the NASA Performance
Report. The new paragraph states that “design life equated to the consumption of 87 kilograms
of xenon propellant” and that the success of the tests (repeated firings) made ion propulsion a
legitimate option for deep space solar system exploration missions. Even with the addition of
the information, the paragraph still does not address how NASA documented the test results.




                                               6
Target 0Y44: “Focus EOCAP [Earth Observing Commercialization Applications
Program] joint commercial applications research to develop 20 new market commercial
products (e.g., oil spill containment software by EarthSat; map sheets products by
ERDAS, Inc.).” This target relates to a program managed by the Office of Earth Science
under the NASA Commercial Remote Sensing Program. NASA plans to report that it
achieved the target performance. In reviewing this target, we determined that all of the 20
products reported as new were not. Therefore, we do not consider the reported assessment to
be accurate.

To verify the reported data, we reviewed the Commercial Remote Sensing Program Web site
under EOCAP projects. We reviewed the Web page and product description of each
company cited in the target and performance assessment and noted the year each was funded.
We randomly selected 6 of the 20 companies to contact directly and determine whether their
product was released to the market and, if so, when. One of the six products was released
commercially in 1996, three in 1997, one in 1999, and one in 2000. Only one of the six
products selected was a new market product released in 2000.

The focus of the EOCAP is to broaden the acceptance and use of remote sensing technology in
the marketplace by combining market knowledge with technical capability to guide product
development based on customers’ needs. NASA shares technical, financial, and product-
development risks with private sector companies while providing access to facilities and
technical expertise. EOCAP projects are typically 3-year projects. There is a time lag between
funding and bringing a product to market. After a project is completed, the entity has 2 years to
report on it. The projects cited in the target performance assessment were funded as far back
as 1993. A 1993 product would be released commercially by 1996, and the entity would have
until 1998 to report on its achievement in the market place. We determined that the actual
performance described in the target assessment was inaccurate because most of the reported
EOCAP products were already on the market. Therefore, the reported performance on this
target is not accurate.

NASA is preparing to issue its second Performance Report. The Agency is still learning how to
effectively implement GPRA and measure performance under the Act’s requirements. Though
not required by GPRA, NASA plans to identify the data source and the methods used to verify
and validate the supporting data for each performance target in its FY 2000 Performance
Report. By providing this information, NASA is improving the usefulness of its Performance
Report to the Congress, OMB, and others. However, NASA’s GPRA performance
measurement process continues to be an area of concern as discussed in this report.
Management actions are needed to ensure that all the information in the annual Performance
Plans and Performance Reports is reliable and useful to decision makers.




                                               7
Recommendations, Management's Response, and Evaluation of
Response

The Associate Administrators for the Strategic Enterprises and the GPRA Stewards
should:

   1. Review the information on the four performance targets discussed in this report
   as well as the supporting data for all other FY 2000 targets to ensure that results
   reported in the FY 2000 Performance Report are accurate and reliable.

   2. Develop clear, future GPRA targets that appropriately represent the desired
   performance expected to be achieved.

   3. Disclose fully all target data limitations in future performance reports when
   reporting actual performance.

Management's Response. Concur. Management reviewed the performance statements for
the four performance targets and made the necessary corrections or clarifications in the FY
2000 Performance Report. In addition, for each performance target, NASA included a
description of the methods used to verify and validate supporting data and identified the data
source.

In the FY 2002 Performance Plan data call letter and the FY 2003 performance metric
development guidance sent to the Associate Administrators for the Strategic Enterprises and the
GPRA Stewards, the CFO emphasized the need to develop clear and measurable performance
targets. The guidance on the FY 2003 performance metrics also summarized the characteristics
of good performance metrics. To ensure that stakeholders and the public more fully appreciate
NASA's planned performance, the NASA Office of Public Affairs incorporated statements of
Public Benefit in the FY 2002 Performance Plan. The statements are intended to show how
NASA performance targets are relevant to the public and congressional decision makers.

The FY 2000 Performance Report data call letter also emphasized the requirement to report
data limitations in performance statements. NASA will continue to emphasize the need to
disclose data limitations in future performance reporting. The complete text of management's
response is in Appendix D.

Evaluation of Response. Management's actions are responsive to the recommendations.
The actions taken and planned in response to the recommendations show a strong management
commitment to GPRA and a willingness to ensure that all the information in the annual
Performance Plan and Performance Report are reliable and useful to decision makers.




                                               8
              Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective was to assess the quality of data supporting the reported results that will
be contained in the NASA FY 2000 Performance Report. The specific objectives were to
review and test selected performance targets to assess: (1) whether the data are appropriate for
the performance target and (2) whether the data is complete, accurate, consistent, and timely.

Scope and Methodology

The audit covered targets contained in NASA's FY 2000 Performance Plan. NASA's Plan
included 211 performance targets. To perform this audit, we concentrated on targets that fit
within six areas considered critical to the Agency: Procurement, Financial Management,
Information Technology, International Space Station, Program and Project Management, and
Safety and Mission Assurance. Further, we included only performance targets that NASA
intended, at the time of our audit, to report as being achieved or exceeded. We also included
targets that were similar to those we identified in our audit of FY 1999 targets as not having
reliable supporting data. We reviewed 23 performance targets that, in our opinion, met all of
the above criteria. Appendix C provides details on the performance targets we reviewed.
Although we did not use statistical sampling procedures, we considered the selected targets
reasonably representative of all the targets included in NASA's Performance Plan.

To accomplish our objectives we:

    •   Reviewed GPRA legislation, OMB guidance, and related documentation relative to
        measuring and reporting performance results.

    •   Obtained and reviewed, for the selected performance targets, the measured data and
        information supporting the results that were planned to be included in NASA's FY 2000
        Performance Report.

    •   Interviewed NASA personnel and others who had a role either in collecting and
        providing the data and information used to measure results or in summarizing and
        reporting the results.

    •   Determined, through interviews and reviews of readily available studies or analyses,
        whether there were known major problems with the systems or sources of the
        performance data.




                                                9
Appendix A

Management Controls Reviewed

We reviewed the following controls with respect to measuring and reporting performance:

   •   NASA FY 2000 Performance Plan

   •   NASA Strategic Management Handbook (February 2000)

   •   Office of the Chief Financial Officer, Office Work Instruction, “Performance Plan
       Update & Reporting,” HOWI7410-B003

   •   OMB Circular A-11, “Preparing and Submitting Budget Estimates” (July 12, 1999, and
       July 19, 2000)

   •   FY 2000 Performance Report and FY 2000 Accountability Report Data Call Letter
       from the Chief Financial Officer to the Officials-in-Charge of Headquarters and
       Functional Offices (September 26, 2000)

Management controls for validating and verifying the reliability of GPRA-related performance
data and the reported results are not adequate as discussed in the finding.

Audit Field Work

We conducted field work from November 2000 through February 2001 at NASA
Headquarters and Johnson Space Center. We performed the audit in accordance with
generally accepted government auditing standards.




                                              10
               Appendix B. Summary of Prior Audit Coverage

NASA Office of Inspector General

“NASA Implementation of the Government Performance Results Act,” Report
Number IG-99-055, September 28, 1999. The report states that NASA (1) had not made a
timely assessment of progress in achieving FY 1999 performance goals and (2) had not
established formal procedures to ensure that all the data and information used to evaluate
progress and report final results are accurate and reliable. The report contains three
recommendations to assist NASA in addressing and correcting these issues. Management
concurred with all recommendations.

“Validating FY 1999 Performance Data To Be Reported Under the Government
Performance Results Act,” Report Number IG-00-020, March 28, 2000. The OIG
reviewed the accuracy and reliability of performance data for 23 performance targets to be
reported in NASA's FY 1999 Performance Report. We concluded that the supporting data
and information on 18 of 23 performance targets reviewed were adequate, and we did not
identify any significant problems with reported actual performance for those targets. However,
the reported performance on five targets reviewed was not fully reliable because the supporting
data did not adequately support the results described. The report contains three
recommendations to improve the reliability of reported performance. Management concurred
with all recommendations.

General Accounting Office

“Observations on the National Aeronautics and Space Administration's Fiscal Year
2000 Performance Plan,” July 20, 1999, GAO-NSIAD-99-186R. Pursuant to a
congressional request, GAO reviewed NASA's plan with a focus on (1) assessing the
usefulness of the Agency's plan for decisionmaking and (2) identifying the degree of
improvement the Agency's FY 2000 Performance Plan represents over the FY 1999 Plan.

GAO determined that the Agency's plan should be useful to decisionmakers. It provides a
limited picture of intended performance across the Agency, a general discussion of strategies
and resources the Agency will use to achieve its goal, and limited confidence that performance
information will be credible. NASA's FY 2000 Plan represents a moderate improvement over
the FY 1999 Plan in that it indicates some degree of progress in addressing the weaknesses
identified in GAO's assessment of the FY 1999 Plan.




                                               11
             Appendix C. Performance Targets Reviewed in Detail

 Target
Number**              Target Description as Stated in the FY 2000 Performance Plan

0C11          Support no less than 800 portable exhibit loans and send portable exhibits to a
              minimum of 175 targeted events per year.
0GK13         To implement flight missions, the Earth Science Enterprise will successfully launch
              one spacecraft and deliver two instruments for international launches, within 10% of
              budget on average.
0H1           Support an expanded research program of approximately 935 investigations, an
              increase of ~17% over FY99. Publish 100% of science research progress in the
              annual OLMSA [Office of Life and Microgravity Science and Applications] Life
              Sciences and Microgravity Research Program Task Bibliographies and make this
              available on the Internet.
0H13          Achieve 85% on-time, successful launches, excluding weather risk.
0H26          Develop medical protocols and test the capability of the Crew Health Care System
              as integrated in the ISS [International Space Station] U.S. Laboratory.
0H43          Reduce the space communications budget submit for FY00 by 30-35% from the
              FY96 congressional budget submit.
0MS3          Reduce the number of Agency lost workdays (from occupational injury or illness)
              by 5% from the FY94-96 3-year average.
0MS4          Cost 70% or more of available resources.
0MS5          Of funds available for PBC [Performance Based Contract], maintain PBC
              obligations at 80% (funds available exclude grants, cooperative agreements, actions
              <$100,000, SBIR [Small Business Innovation Research], STTR [Small Business
              Technology Transfer], FFRDC's [Federally Funded Research and Development
              Centers], intergovernmental agreements, and contracts with foreign governments or
              international organizations.
0MS8          Achieve at least the congressionally mandated 8% goal for annual funding to small
              disadvantaged businesses (including prime and subcontracts, small disadvantaged
              businesses, HBCU's [Historically Black Colleges and Universities], other minority
              institutions, and women-owned small businesses).
0P2           Ensure the availability of NASA's spacecraft and ground facilities by decreasing the
              FY99 unscheduled downtime.
0P7           Increase the amount of leveraging of the technology budget with activities of other
              organization, relative to the FY99 baseline that is established during the process
              development
0R10          Complete NSTAR [NASA Solar Electrical Propulsion Technology Application
              Readiness] Mission Profile (100% design life) ground testing for Deep Space-1
              (concurrent, identical firing of an NSTAR engine in a vacuum chamber with the
              actual firing sequence of the in-flight propulsion system).
* See the Legend at the end of the table.



                                                 12
                                                                                 Appendix C

0R14     Achieve a facility utilization customer satisfaction rating of 95 percent of
         respondents at “5” or better and 80 percent at “8” or better, based on exit
         interviews.
0R15     Transfer at least 12 new technologies and processes to industry during the fiscal
         year.
0S6      Prepare the INTEGRAL Science Data Center (ISDC) for data archiving and
         prepare instrument analysis software for the Spectrometer on INTEGRAL (SPI)
         instrument within 10% of estimated cost.
0S16     NEAR [Near Earth Asteroid Rendezvous] will successfully orbit 433 Eros and
         meet primary scientific objectives while not exceeding projected mission cost by
         more than 10%.
0S49     Information systems R&T [Research and Technology] will demonstrate the search,
         discovery, and fusion of multiple data products at a major science meeting.
         Accomplish and document the infusion of five information systems R&T efforts into
         flight projects or the broad research community. Space science data services shall
         be acknowledged as enabling for two interdisciplinary collaborations.
0S67     Successful achievement of at least seven of the following eight objectives will be
         made. (1) Each new Space Science mission will have a funded education and
         outreach program. (2) By the end of FY00, 10% of all Space Science research
         grants will have an associated education and outreach program under way. (3)
         Twenty-six states will have Enterprise-funded education or outreach programs
         planned or under way. (4) At least five research, mission development/operations,
         or education programs will have been planned/undertaken in Historically Black
         Colleges and Universities, Hispanic Serving Institutions, or Tribal Colleges, with at
         least one project under way in each group. (5) At least three national and two
         regional educational or outreach conferences will be supported with a significant
         Space Science presence. (6) At least three exhibits or planetariums shows will be
         on display. (7) An online directory providing enhanced access to major Space
         Science-related products and programs will be operational by end of the fiscal year.
         (8) A comprehensive approach to assessing the effectiveness and impact of the
         Space Science education and outreach efforts will be under development, with a
         pilot test of the evaluation initiated.
0Y9      Establish a benchmark for global and regional rainfall measurements by combining
         TRMM [Tropical Rainfall Measuring Mission] measurements with measurements
         from other sources. Create maps of the diurnal cycle of precipitation for the first
         time. Combine the existing 10-year data set with TRMM measurements to validate
         climate models and demonstrate the impact of rainfall on short-term weather
         forecasting. Distribute through the Goddard DAAC [Distributed Active Archive
         Center] for ease of access to science and operational users.
Appendix C


                                             13
0Y10         Develop/improve methods to couple state-of-art-land surface and sea ice models to
             a global coupled ocean-atmosphere model and use to predict regional climatic
             consequences of Él Niño or La Niña occurrence in the tropical Pacific. Results of
             research will be published in the open literature and provided to NOAA's [National
             Oceanic and Atmospheric Administration] National Climate Prediction Center and
             the U.S. Navy's Fleet Numeric Prediction Center. Ultimate goal: develop a
             capability to significantly improve the prediction of seasonal-to-interannual climate
             variations and their regional climate consequences. The main focus is on North
             America.
0Y43         Implement at least five joint applications research projects/partnerships with State
             and local governments in remote-sensing applications.
0Y44         Focus EOCAP [Earth Observing Commercialization Applications Program] joint
             commercial applications research to develop 20 new market commercial products,
             (e.g., oil spill containment software by EarthSat and map sheets products by
             ERDAS, Inc.)

* Legend:
    0 refers to FY 2000.
    C refers to the Communicate Knowledge Crosscutting Process.
    GK refers to the Generate Knowledge Crosscutting Process.
    H refers to the Human Exploration and Development of Space Enterprise.
    MS refers to the Manage Strategically Crosscutting Process.
    P refers to the Provide Aerospace Products and Capabilities Crosscutting Process.
    R refers to the Aerospace Technology Enterprise.
    S refers to the Space Science Enterprise.
    Y refers to the Earth Science Enterprise.




                                                   14
Appendix D. Management’s Response




               15
Appendix D




             16
     Appendix D




17
Appendix D




             18
     Appendix D




19
                        Appendix E. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AA/Chief of Staff
AI/Associate Deputy Administrator
AE/Chief Engineer
AS/Chief Scientist
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
BR/Acting Director, Resources Analysis Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/ Director, Management Assessment Division
L/Acting Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
Q/Associate Administrator for Safety and Mission Assurance
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
U/Acting Associate Administrator for Biological and Physical Research
Y/Associate Administrator for Earth Science
Z/Acting Associate Administrator for Policy and Plans

NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, Jet Propulsion Laboratory
Acting Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
Chief Counsel, John F. Kennedy Space Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center
Acting Director, John C. Stennis Space Center




                                             20
Appendix E

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Director, Acquisition and Sourcing Management Team, General Accounting Office
Professional Staff Member, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             21
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Validation and Verification of Selected NASA FY 2000 Performance
               Data Related to the Government Performance and Results Act
               (GRPA)

Report Number:                                         Report Date:


Circle the appropriate rating for the following statements.


                                                      Strongl                              Strongl
                                                         y      Agree   Neutra   Disagre   y         N/A
                                                      Agree               l         e      Disagre
                                                                                              e
1.   The report was clear, readable, and logically       5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.            5       4        3         2         1      N/A
3.   We effectively communicated the audit               5       4        3         2         1      N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5       4        3         2         1      N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

      Excellent               Fair
      Very Good               Poor
      Good
If you have any additional comments or wish to elaborate on any of the
above responses, please write them here. Use additional paper if necessary.
How did you use the report?
                    report




How could we improve our report?




How would you identify yourself? (Select one)


       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:

May we contact you about your comments?

Yes: ______                                    No: ______

Name: ____________________________

Telephone: ________________________

Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Chester A. Sipsock, Program Director, Environmental and Financial Management Audits

Carol A. St. Armand, Audit Program Manager

Mary S. Anderson, Auditor

Ronald T. Callahan, Auditor

Nancy C. Cipolla, Report Process Manager

Annette Huffman, Program Assistant
